BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
American Association for Justice and Public Justice as
Amici Curiae in Support of the Respondent in 19-963,
Henry Schein, Inc. v. Archer and White Sales, Inc.,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
20th day of October, 2020:
Kannan K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioner
Daniel L. Geyser
Alexander Dubose & Jefferson LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 7 5231
(214) 396-0441
dgeyser@adjtlaw.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Matthew W.H. Wessler
Counsel of Record
Linnet Davis-Stermitz
Gupta Wessler PLLC
1900 L Street NW Suite 312
Washington, DC 20036
(202) 888-17 41
matt@guptawessler.com
Jennifer D. Bennett
Gupta Wessler PLLC
100 Pine Street Suite 1250
San Francisco, CA 94111
(415) 573-0336
Leah M. Nicholls
Public Justice, P.C.
1620 L Street NW, Suite 630
Washington, DC 20036
(202) 797 -8600
Tobias L. Millrood
American Association For Justice
777 6th Street, NW
Washington, DC 20001
(202) 944-2839

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 20, 2020.

DonnaJ. Wo ·
~
Becker Gallagher Legalublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: (}

c£i7/nL..

d Zih- (),_

Notary Public
[seal]

